CERTIFICATE OF WORD COUNT
No. 20-458
Michael B. Brown,
Petitioner,
v.
U.S. Department of Labor,
Respondent.
STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the MICHAEL B. Brown
Petition for Rehearing contains 2961 words, including the parts of the brief that are required or
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas^eDeus
January 8, 2021

SCP Tracking: Brown-P.O. Box 3343-Cover Tan

